Review of Medicare Payments for Beneficiaries with Institutional Status - Blue Care Network, Southfield, Michigan, A-05-01-00079;
Department
of Health and Human Services
"Review of Medicare Payments for Beneficiaries with Institutional Status
- Blue Care Network, Southfield, Michigan," (A-05-01-00079)
June 10, 2002
Complete
Text of Report is available in PDF format (134kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit
was to determine if payments to Blue Care Network (Contract H9009) were appropriate
for beneficiaries reported as institutionalized. We determined that Blue Care
received Medicare overpayments totaling $100,692 for 54 beneficiaries incorrectly
reported as institutionalized during the period January 1, 1998 through December
31, 2000.  The majority of the beneficiaries did not meet the 30-day residency
requirement in a qualifying institutional facility.  Blue Care Network
should not have received payment at the enhanced institutional rate.